ADDENDUM

United States v. Bennett, 806 Fed.Appx. 605 (2020)

806 Fed.Appx. 605 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
V.
Brandon Cordell BENNETT, Defendant-Appellant.
No. 19-30079
Submitted May 14,

2020 *

Portland, Oregon

FILED May 28,

2020

Attorneys and Law Firms

Leif Johnson, Assistant U.S, Attorney, Office of the US
Attorney, Billings, MT, Cyndee L. Peterson, USMI - Office
of the U.S. Attorney, Missoula, MT, Ryan George Weldon,
Assistant U.S. Attorney, USGF - Office of the U.S. Attorney,
Great Falls, MT, for Plaintiff-Appellee
Michael Donahoe, Esquire, Assistant Federal Public
Defender, FDMT-Federal Defenders of Montana, Helena,
MT, for Defendant-Appellant
Appeal from the United States District Court for the District
of Montana, Brian M. Morris, District Judge, Presiding, D.C.
No. 4:17-cr-00068-BMM-1
Before: BYBEE and VANDYKE, Circuit Judges, and
CHHABR1A, District Judge.

*606 MEMORANDUM ***

After reserving his right to appeal from the denial of his
motion to suppress, Brandon Bennett pleaded guilty to receipt
of child pornography in violation of
18 U.S.C. § 2252(a)
(2). We have jurisdiction over his appeal under 28 U.S.C. §
1291.

Bennett contends that Detective Price violated the Fourth
Amendment by omitting several material facts from the
warrant application to search Bennett's phone. See Franks
v. Delaware, 438 U.S. 154, 155-56,98 S.Ct. 2674,57 L.Ed.2d
667(1978); t United States v. Stanert, 762 F.2d 775, 780-81
(9th Cir. 1985). After conducting an evidentiary hearing, the
district court found that Detective Price intentionally omitted
only that Bennett had recently been acquitted of incest in
state court. The district court denied the motion to suppress,
reasoning that the warrant would have been supported
by probable cause even had Detective Price included the
acquittal in his affidavit.
We review for clear error the district court's findings as
to whether the omissions were purposeful or reckless. See
c United States v. Perkins, 850 F.3d 1109, 1115 (9th Cir.
2017). Although the district court's conclusion that Detective
Price himself did not omit the remaining information
intentionally or with reckless disregard for the truth was
not clearly erroneous, the question whether the district court
committed clear error at the first step of
Franks is
complicated by the fact that the attorney assisting Detective
Price with the affidavit was the lead counsel in the prior trial
and had independent knowledge of the facts. See r - United
States v DeLeon, 979 F.2d 761, 764 (9th Cir. 1992) ("A
deliberate or reckless omission by a government official
who is not the affiant can be the basis for a (.
suppression.").

Franks

We affirm the denial of the motion to suppress on the
alternative ground that probable cause would have existed to
search Bennett's phone even if all the omissions identified
by Bennett had been included in the warrant application. See
Ewing v. City of Stockton, 588 F.3d 1218, 1224 (9th Cir.
2009). True, the omitted facts could support an inference
that Jane Doe's mother coaxed Jane into accusing Bennett of
taking the photos so that law *607 enforcement would have
justification for accessing Bennett's phone. But this does not
negate any of the "facts necessary to the finding of probable
cause."cr. Cameron v. Craig, 713 F.3d 1012, 1020 (9th
Cir. 2013) (internal quotation marks omitted). Considering
the totality of the facts—including Jane's prior reports of
molestation and the fact that Jane provided a consistent
account of Bennett taking the photos to both her counselor and
the forensic interviewer—a fair probability existed that Jane
was telling the truth and that evidence of the crime would be

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

ADDENDUM - Page 1

United States v. Bennett, 806 Fed.Appx. 605 (2020)

AFFIRMED.
found on Bennett's phone. Cf

Perkins, 850 F.3d at 1122;

Stool v. City of Everett, 582 F.3d 910, 919-21 (9th Cir.
2009).

All

Citations

806 Fed.Appx. 605 (Mem)

Footnotes

The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App.
P. 34(a)(2).
The Honorable Vince Chhabria, United States District Judge for the Northern District of California, sitting by
designation.
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit
Rule 36-3.

End of Document

WESTLAW

0 2020 Thomson Reuters. No claim to original U.S. Government Works.

2020 Thomson Reuters. No claim to original U.S. Government Works.

2

ADDENDUM - Page 2

Case: 19-30079, 08/26/2020, ID: 11803248, DktEntry: 45, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

AUG 26 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

19-30079

D.C. No.
4:17-cr-00068-BMM-1
District of Montana,
Great Falls

BRANDON CORDELL BENNETT,
ORDER
Defendant-Appellant.
Before: BYBEE and VANDYKE, Circuit Judges, and CHHABRIA,* District
Judge.
The panel judges have voted to deny appellants’ petition for rehearing. Judge
VanDyke voted to deny the petition for rehearing en banc, and Judges Bybee and
Chhabria recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App. P.
35.
Appellants’ petition for rehearing and petition for rehearing en banc, filed
July 23, 2020, are DENIED.

*

The Honorable Vince Chhabria, United States District Judge for the
Northern District of California, sitting by designation.

ADDENDUM - Page 3

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 1 of 27

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
GREAT FALLS DIVISION

UNITED STATES OF AMERICA,

CR-17-68-GF-BMM

Plaintiff,
vs.
ORDER
BRANDON CORDELL BENNETT,
Defendant.
Defendant Brandon Cordell Bennett moves this Court to suppress evidence
obtained from his cell phone pursuant to a search warrant issued by a Montana
state district court judge. (Doc. 141.) Bennett also filed a Motion for a Bill of
Particulars (Doc. 145) and a Motion for Pretrial Judgement of Acquittal (Doc.
168). The Court conducted a hearing on the instant motions on April 8, 2019.
(Doc. 174.)
BACKGROUND
The Great Falls Police Department ("GFPD") arrested Bennett on October
13, 2015, in response to an allegation that Bennett had sexually abused his step
1

ADDENDUM - Page 4

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 2 of 27

daughter, Jane Doe. (Doc. 143-2.) Bennett was arrested at his place of
employment—O'Reilly Auto Parts. (Doc. 142-3 at 2.) Officer Jeremy Parks was
instructed to check the O'Reilly Auto Parts' parking lot for Bennett's vehicle to see
whether Bennett's cell phone was located inside the vehicle. Id. Officer Parks
observed a cell phone located on the passenger seat. Id. Officer Parks requested
that S&C Auto, Inc. tow Bennett's vehicle to the GFPD. Id. Officer Parks sealed
Bennett's vehicle with evidence tape. Id.
GFPD assigned Detective Adam Price to follow up on the initial
investigation into Doe's allegation against Bennett on the date of Bennett's arrest.
(Doc. 143-5 at 1.) Cascade County Deputy County Attorney Josh Racki informed
Detective Price "that there was not enough probable cause to seize andJor search
[Bennett's] phone." (Doc. 143-5 at 3.) GFPD eventually arranged to have
Bennett's vehicle towed back to his residence that he shared with D.D., Doe's
mother. Id.
The State of Montana charged Bennett by Information in the Eighth Judicial
District, Cascade County, with Incest, a felony, in violation of Montana Code
Annotated § 45-5-507, on October 20, 2015. (Does. 143-2, 142-6 at 1.) The case
proceeded to trial. A jury found Bennett not guilty of this offense on August 10,
2016. (Doc. 143-8 at 8-9.)

2

ADDENDUM - Page 5

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 3 of 27

Robin Castle, Doe's counselor, contacted Detective Price on August 23,
2016. (Doc. 143-1 at 4.) Doe had been seeing Castle since November of 2015,
following her earlier disclosure of sexual abuse by Bennett. (Doc. 173-1 at 24.)
Doe had confided in Castle that Bennett "had taken photos of [Doe] naked with his
cell phone while making her pose in certain positions." Id. Castle informed
Detective Price that D.D., currently was at Castle's office. Id. Castle reported that
D.D. was in possession of Bennett's cell phone. Id. D.D. provided Detective Price
with Bennett's cell phone at Castle's office. Id.
Detective Scott conducted a forensic interview with Doe on August 24,
2016. (Does. 143-1 at 4, 144, Exhibit Q.) Doe disclosed, in relevant part, that
Bennett had taken photos of Doe "down there" and of her upper body. Id. Doe
explained that Bennett had taken photos of Doe while he was touching her. Id.
Bennett allegedly made Doe spread her legs and make them go up while she was
laying on her back. Id. Doe repeated that Bennett had used his cell phone to take
the photos of her. Id.
Detective Price applied for a warrant to search Bennett's cell phone on
August 31, 2016. (Doc. 142-2.) Detective Price attested to the following in his
affidavit in support of the search warrant:
On August 23, 2016, GFPD Detective Price received a call from child
counselor Robin Castle. Castle had been seeing 9 year old Jane Doe in
relation to sexual abuse by her step-father, Brandon Bennett. Castle
informed Price that Doe had disclosed that Bennett had taken pictures of
3

ADDENDUM - Page 6

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 4 of 27

Doe naked with his cell phone while making her pose in certain positions.
Castle informed Doe's mother and Doe's mother brought the cell phone to
Castle's office.
Detective Price met with Castle and Doe's mother at Castle's office. Doe's
mother informed Detective Price that the phone belonged to Bennett and that
she tried to get into the phone herself to look at it but that she did not know
the passcode. Doe's mother provided the phone to Detective Price and a
forensic interview was scheduled for Doe.
On August 24, 2016, Detective Noah Scott performed a forensic interview
with Doe. Doe disclosed that Bennett "hurt her." Bennett took pictures of
Doe "down there" referring to her vaginal area. Bennett also took pictures of
her chest. All of these pictures were taken with Bennett's phone. Doe also
reported that Bennett touched her in the vaginal and chest area. She stated
that he touched under her clothes with his "little willy thingy" and took
pictures with his phone while touching her. Doe reported that this all
occurred at their house in her morn's room.
Doe disclosed that when Bennett took the pictures he made Doe spread her
legs and lift her legs up while she laid on her back. Doe felt scared when this
happened and reported that only she and Bennett were in the room while he
did this and while he took the pictures.
After this interview, Detective Price spoke with Doe's mother. Doe's mother
reported that this was Bennett's only phone and that he had used it for at
least a year prior to him being arrested in October 2015. Doe's mother stated
that after he was arrested she tried to get into the phone as she was suspected
that Bennett looked at child pornography, however she could not access the
phone as it was protected by a passcode. (sic).
(Doc. 142-2 at 1-2.) Montana State District Court Judge Greg Pinski issued the
search warrant that same day. Id.

at

4.

Detective Price extracted data from Bennett's cell phone on September 1,
2016. (Doc. 142 at 12.) Detective Price observed that the extracted data contained
mostly images of child pornography. Id. Law enforcement officers obtained a
4

ADDENDUM - Page 7

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 5 of 27

series of warrants between September 1, 2016 and March of 2017, to search
Bennett's cell phone. Id. Law enforcement recovered a total of 1,043 images of
child pornography from Bennett's cell phone. Id.
The grand jury indicted Bennett on October 5, 2017, on two counts: Sexual
Exploitation of a Child, in violation of 18 U.S.C. § 2251(a) (Count I), and Receipt
of Child Pornography, in violation of 18 U.S.C. § 2252(a)(2) (Count II). (Doc. 1.)
The Government filed a Superseding Indictment on April 4, 2019. (Doc. 164.) The
Superseding Indictment alleges the same two counts that had been alleged in the
Indictment with one modification

the date of conduct was changed in Count I. Id.

at 2.
DISCUSSION
The Court will address first whether Bennett's claim entitles him to a Franks
hearing. Second, the Court will analyze whether Bennett's Franks hearing warrants
suppression of evidence from Bennett's cell phone obtained subsequent to a search
warrant. Third, the Court will determine whether Bennett's claim warrants
dismissal of Count I of the Superseding Indictment.
I. Franks Hearing and Motion to Suppress
Bennett asserts that the omission of facts relating to Doe's credibility, Doe's
mother's credibility, a parenting plan that D.D. had tiled in state court, and the
prior history of Bennett's state case undermines Judge Pinski's determination of
5

ADDENDUM - Page 8

Case 4:17-cr-00068-BMM Document 183 Filed 04110/19 Page 6 of 27

probable cause to search Bennett's phone. (Doc. 142 at 15-17.) Bennett's argument
requires the Court to address first whether these omissions entitle Bennett to a
hearing pursuant to Franks v. Delaware, 438 U.S. 154, 171 (1978).
"[W]here the defendant makes a substantial preliminary showing that a false
statement knowingly and intentionally, or with reckless disregard for the truth, was
included by the affiant in the warrant affidavit, and if the allegedly false statement
is necessary to the finding of probable cause, the Fourth Amendment requires that
a hearing be held at the defendant's request." Franks, 438 U.S. at 155-56. The
Fourth Amendment likewise permits a defendant to challenge a warrant pursuant to
Franks when a valid affidavit "contains deliberate or reckless omissions of facts
that tend to mislead." United States v. Stanert, 762 F.2d 775, 781 (9th Cir. 1985).
A defendant proves entitled to a Franks hearing if he establishes the
following factors:
(1) the defendant must allege specifically which portions of the warrant
affidavit are claimed to be false; (2) the defendant must contend that the
false statements or omissions were deliberately or recklessly made; (3) a
detailed offer of proof, including affidavits, must accompany the allegations;
(4) the veracity of only the affiant must be challenged; and (5) the
challenged statements must be necessary to find probable cause.
United States v. DiCesare, 765 F.2d 890, 894-95 (9th Cir. 1985) (citation omitted);
see also United States v. Bennett, 219 F.3d 1117, 1124 (9th Cir. 2000) ("A
defendant is entitled to a Franks hearing only if he makes a two-fold showing:
intentional or reckless inclusion or omission, and materiality."). Essentially, the
6

ADDENDUM - Page 9

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 7 of 27

defendant must make "a substantial preliminary showing that the affidavit
contain[ed] intentionally or recklessly false statements, and. . . [that] the affidavit
purged of its falsities would not be sufficient to support a finding of probable
cause." United States v. Meling, 47 F.3d 1546, 1553 (9th Cir. 1995) (internal
quotations and citation omitted).
The Court determined at Bennett's motion hearing that Bennett had made a
substantial showing to establish the five DiCesare factors. First, Bennett has
"alleg[ed] specifically" that Detective Price's affidavit as a whole remains false
due to Detective Price's failure to include nine omitted facts. DiCesare, 765 F.2d at
894-95. Second, Bennett contends that Detective Price deliberately omitted those
facts from his affidavit. Third, though Bennett fails to accompany his allegations
with "a detailed offer of proof," Bennett does provide a combination of direct and
circumstantial evidence to support his assertions. DiCesare, 765 F.2d at 894-95.
Fourth, Bennett's assertions challenge the veracity of Detective Price—the
detective who has been investigating Bennett's case since October 13, 2015.
Finally, the alleged omissions from Detective Price's affidavit prove necessary to
the finding of probable cause to search Bennett's cell phone. These facts entitle
Bennett to a Franks hearing.
Once a defendant earns a Franks hearing, his burden of proof changes. A
defendant at a Franks hearing must prove the following elements by a
7

ADDENDUM - Page 10

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 8 of 27

preponderance of the evidence: "that there was (1) a knowing and intentional
falsehood or a reckless disregard for the truth; and (2) that the challenged statement
was essential to the finding of probable cause." United States v. Dozier, 844 F.2d
701, 705 (9th Cir. 1988).
A. Intentional or Reckless Omissions
Bennett specifically alleges that the following facts should have been
included in Detective Price's affidavit in support of the search warrant application:
(1) that a jury acquitted Bennett on a state incest charge that dealt with the same
complaining witness two weeks before the Doe's August 23, 2019, disclosure; (2)
that Doe never disclosed in any pretrial interviews that Bennett had taken photos of
her; rather, Doe denied that Bennett had taken photos of her; (3) that Doe did not
report to her counselor before the state trial that Bennett had taken inappropriate
photos of her; (4) Doe likewise did not testify at trial that Bennett had taken photos
of her; (5) that Doe made her allegations in August of 2016 and that Bennett had
been incarcerated since October of 2015; (6) that law enforcement previously
lacked probable cause to apply for a warrant to search Bennett's cell phone; (7)
that Doe's mother had sought advice from Detective Price on how best to prevent
Bennett from having contact with their biological daughter; (8) that Doe's mother
previously represented that she did not believe that Bennett was interested in
children and only made the representation to law enforcement that she suspected
8

ADDENDUM - Page 11

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 9 of 27

Bennett looked at child pornography after Bennett had been acquitted; and (9) that
Doe's mother previously stated that none of her children had reported any sexual
abuse or Bennett having taken inappropriate photos of the children. (Doc. 142 at
15-16.)
"[W]hen the Fourth Amendment demands a factual showing sufficient to
compromise 'probable cause,' the obvious assumption is that there will be a
truthful showing." United States v. Tate, 524 F.3d 449, 164-65 (4th Cir. 2008)
(citation omitted) (emphasis in original), "Truthful" does not require that "every
fact recited in the warrant affidavit is necessarily correct, for probable cause may
be founded upon hearsay and upon information received from informants, as well
as upon information within the affiant's own knowledge that sometimes must be
garnered hastily." Id. at 165. "Truthful" does mean that the "information put forth
is believed Or appropriately accepted by the affiant as true." Id. "[Aillegations of
negligence or innocent mistake are insufficient." Id. at 454 (internal quotes and
citation omitted).
A defendant's burden increases when his allegations rely "on an omission,
rather than on a false affirmative statement." Tate, 524 F.3d at 454. This enhanced
burden applies because "an affidavit offered to procure a search warrant cannot be
expected to include . . . every piece of information gathered in the course of an
investigation." Id. at 455 (internal quotations and citation omitted). "[B]ecause
9

ADDENDUM - Page 12

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 10 of 27

every

piece of information cannot be expected to be included, the very process of

selecting facts to include for the demonstration of probable cause must also be a
deliberate process of omitting pieces of information." Id.
"[M]erely showing an intentional omission of a fact from a wan-ant affidavit
does not fulfill Franks' requirements." Id. To satisfy the intentional or reckless
falsity requirement for an omission under Franks, the defendant must show that
facts were omitted "with the intent to make, or in reckless disregard of whether
they thereby made, the affidavit misleading." Id. (citation omitted). In other words,
"the omission must be designed to mislead or must be made in reckless disregard
of whether [it] would mislead." Id. (internal quotations and citation omitted).
GFPD assigned Detective Price to Bennett's case at its inception. (Doc. 1435 at 1.) Detective Price personally had interviewed D.D. on October 13, 2015.
(Doc. 143-5 at 1.) Detective Price had observed Doe's first forensic interview on
October 13, 2015. Id. D.D. sought Detective Price's advice on "how best to prevent
[Bennett] from having contact with his daughter." (Doc. 144, Exhibit H.) D.D.
ultimately filed a proposed parenting plan for the daughter that she shared with
Bennett on November 12, 2015. (Doc. 143-6.) And the Cascade County Attorney's
Office previously had informed Detective Price that he lacked probable cause to
search Bennett's cell phone subsequent to Bennett's October 2015 arrest. (Doc.
143-5 at 3.) Detective Price testified at Bennett's state trial. (Doc. 143-8 at 4.)
10

ADDENDUM - Page 13

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 11 of 27

It proves inconceivable that Detective Price lacked awareness of Bennett's
acquittal on his state Felony Incest charge. See (Does. 143-8, 143-1 at 5.) All but
one alleged fact—D.D.'s parenting plan—likely were known to Detective Price at
the time that he provided the August 31, 2016, affidavit in support of the search
warrant application to Judge Pinski. The Court will discuss these omitted facts to
determine whether Detective Price intentionally or recklessly omitted these facts in
an intent to mislead Judge Pinski.
1. Doe's Previous Disclosure

Bennett argues that the search warrant affidavit should have included the fact
that Doe never disclosed before trial that Bennett had taken inappropriate photos of
her. (Doc. 142 at 15-16.) Doe underwent a forensic interview on October 13, 2015.
(Docs. 143-5 at 1, 144 at Exhibit H.) The interviewer asked: "[Was [Bennett] ever
taken photos of you?" (Does. 155 at 11, 144 at Exhibit H.) Doe responded: "[n]o. I
don't know." Id. Doe later elaborated stating, "[o]nly with me and Heather." Id.
The interviewer failed to clarify Doe's ambiguous response. See id. Doe's
statements nonetheless fail to rise to the level of a categorical denial. It does not
appear that Detective Price's omission of Doe's previous response to an ambiguous
question was not "designed to mislead" the reviewing judge. Tate, 524 F.3d at 455
(citation omitted).

11

ADDENDUM - Page 14

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 12 of 27

2. D.D.'s Previous Statements
Bennett likewise alleges that D.D. never had reported to law enforcement that
she suspected Bennett had viewed child pornography before Bennett's state trial.
(Doc. 142 at 16.) Bennett further contends that D.D. never had disclosed that her
children had reported that Bennett took inappropriate photos of them before
Bennett's state trial. Id. D.D. had reported to Detective Price in an interview that
she believed that Bennett used his cell phone to view pornography. (Doc. 144 at
Exhibit H.) D.D. admitted to being "unaware" of whether he had any child
pornography on his phone. (Doc. 143-5 at 3.) D.D. admitting that she had been
unaware

whether Bennett viewed child pornography at her initial interview fails to

amount to an inconsistent statement that needed to have been included in Detective
Price's affidavit in support of the search warrant. Detective Price's omission of
D.D.'s lack of knowledge as to whether Bennett viewed child pornography was not
"designed to mislead" the reviewing judge. Tate, 524 F.3d at 455 (citation
omitted).
3. Parenting Plan
D.D. claimed that Bennett viewed child pornography on his cell phone in three
different portions of a parenting plan filed in an ancillary proceeding to Bennett's
state criminal case. (Doc. 143-6 at 8, 13, 14.) D.D. admittedly sought Detective
Price's advice about how to ensure that Bennett did not have custody of his
12

ADDENDUM - Page 15

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 13 of 27

daughter. (Doc. 144 at Exhibit H.) Nothing in the record suggests, however, that
Detective Price knew anything further about the parenting plan or otherwise what
D.D. had stated in the parenting plan. Detective Price's failure to include details
about D.D.'s filed parenting plan therefore had not been "designed to mislead"
Judge Pinski. Tate, 524 F.3d at 455 (citation omitted).
4. Previous Inquiry into Probable Cause to Search
Detective Price contacted the Cascade County Attorney's Office on the day of
Bennett's arrest. (Doc. 143-5 at 3.) Detective Price informed Deputy County
Attorney Racki of all the information that Detective Price knew in relation to the
cell phone and Bennett. See id. Deputy County Attorney Racki explained to
Detective Price that he lacked probable cause to search the cell phone. (Doc. 143-5
at 3.) Detective Price accordingly did not seize or search Bennett's cell phone.
Detective Price did not apply for a warrant to search Bennett's cell phone on that
date. Detective Price's failure to include the fact that he never applied for a search
warrant on October 13, 2015, to search Bennett's cell phone as he knew that no
probable cause existed was not "designed to mislead" Judge Pinski. Tate, 524 F.3d
at 455 (citation omitted).

5. Bennett's Acquittal
Bennett alleges his acquittal in state court—only two weeks before Doe's
disclosure—should have been disclosed in the affidavit supporting the warrant to
13

ADDENDUM - Page 16

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 14 of 27

search Bennett's cell phone. (Doc. 142 at 15.) Detective Price testified that he
contacted Deputy County Attorney Ball, the lead prosecutor in Bennett's previous
state case, following Doe's disclosure to Castle and Doe's forensic interview.
(Doc. 174.) Detective Price explained that he contacted Deputy County Attorney
Ball regarding concerns about whether he could investigate this new allegation in
light of Bennett's acquittal on the felony incest charge. Id. Detective Price
represented that Deputy County Attorney Ball stated that the County Attorney's
Office would be treating Doe's recent disclosure as a new case. Id.
Deputy County Attorney Ball drafted the affidavit in support of the search
wan-ant based on Detective Price's information related to Doe's allegation that
Bennett had taken photos of her. Id. Detective Price signed the affidavit. Id.
Detective Price admitted that he decided against including Bennett's acquittal in
the affidavit. Id. Detective Price reasoned that he thought inclusion of the
acquittal, and of the information underlying Bennett's previous felony incest
charge, would prejudice Bennett. Id. Detective Price and Deputy County Attorney
Ball elected therefore to keep all information from Bennett's felony incest charge
and acquittal separate from Doe's new allegation that Bennett had taken
inappropriate photos of her. Id.
Detective Price testified that he elected also not to include previous
investigations into allegations of sexual abuse by Bennett. Id. Detective Price
14

ADDENDUM - Page 17

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 15 of 27

testified that he did include, however, that Doe was seeing Castle in relation to
sexual abuse by Bennett. Id. Detective Price further testified that he included Doe's
disclosure of instances of hands on abuse because Doe had relayed those instances
during her August 24, 2019, forensic interview. Id.
The facts in United States v. Perkins, 850 F.3d 1109 (9th Cir. 2017), though
admittedly not identical, prove most analogous to Bennett's alleged omission. The
defendant, Charles Perkins, was traveling from Chile to his home in Washington
state.

Perkins, 850 F.3d at 1112. Canadian Border Services Agency ("CBSA")

officers stopped Perkins at the Toronto International Airport upon discovering that
Perkins was a registered sex offender. Id. A CBSA officer subsequently searched
Perkins laptop and discovered two images that the CBSA officer believed to be
child pornography. Id. at 1113. Canadian officials arrested Perkins for possession
of child pornography. Id. Constable Andrew Ullock reviewed the images and
ultimately concluded that the images failed to constitute child pornography. Id.
CBSA forwarded Perkins case to United States Department of Homeland
Security Special Agent Tim Ensley. Id. Agent Ensley received the two images in
question on January 14, 2013. Id. Agent Ensley drafted an affidavit in support of a
warrant to search Perkins's home. Id. Agent Ensley drafted the affidavit before he
had received the two images. Id. Agent Ensley's "affidavit explained that Canadian
officers stopped Perkins because of his prior convictions and arrested him after
15

ADDENDUM - Page 18

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 16 of 27

reviewing the images." Id. His affidavit failed to disclose, however, that the
Canadian officers had dropped the charge against Perkins once they discovered
that the images did not constitute child pornography. Id. at 1113-14. The
magistrate judge issued a search warrant to Agent Ensley. Id. at 1114.
The district court conducted a Franks hearing and concluded that "Agent
Ensley did not intentionally or recklessly mislead the magistrate." Id. at 1115. The
district court denied Perkins's motion to suppress. Id. The Ninth Circuit reversed.
The district court clearly erred when it had concluded that "Agent Ensley did

not

act with at least a reckless disregard for the truth." Id. at 1119. Agent Ensley
actively selected information to provide in his affidavit in support of the search
warrant that "bolster[edi probable cause, while omitting information that did not."
Id. at 1117. Agent Ensley stated that Canadian officers had arrested Perkins after
having reviewed the two images. Id. Agent Ensley failed to disclose in his affidavit
that Canadian officials had dropped Perkins's charge after a "15-year veteran
officer, specializing in the investigation of child exploitation crimes, examined
those same two images and concluded they were not pornographic." Id. The Ninth
Circuit concluded that the affidavit "would not have supported probable cause" if
the omitted information had been included in the search warrant affidavit. Id.
Detective Price, like Agent Ensley in Perkins, failed to disclose the fact that
Bennett previously had been charged with, and acquitted of, incest in state
16

ADDENDUM - Page 19

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 17 of 27

court—a charged based on the allegations of the same complaining witness, Doe.
Detective Price testified that he elected to omit information underlying Bennett's
acquittal or the acquittal itself as Detective Price did not want to prejudice Bennett.
(Doc. 174.) Detective Price nonetheless elected to include the following
information related to Bennett's felony incest charge: (1) that "Castle had been
seeing 9 year old Jane Doe in relation to sexual abuse by her step-father, Brandon
Bennett;" (2) that "Doe reported that Bennett touched her in the vaginal and chest
area. She stated that he touched under her clothes with his 'little willy thingy;"
and (3) that Bennett was "arrested in October 2015." (Doc. 142-2 at 1, 2.)
Detective Price actively selected information to provide in his affidavit in support
of the search warrant that "bolster[ed] probable cause, while omitting information
that did not" when he elected to omit Bennett's acquittal, but include information
related to Bennett's conduct underlying the alleged incest. Perkins, 850 F.3d at
1117.
Detective Price's failure to disclose Bennett's acquittal on a similar charge that
dealt with the same complaining witness manipulated the inferences that Judge
Pinski could draw because Detective Price reported "less than the total story."
Stanert, 762 F.2d at 781. This conclusion proves especially true in light of
Detective Price having disclosed facts related to Bennett's acquittal. Detective
Price's noticeable silence on Bennett's previous acquittal on a similar charge
17

ADDENDUM - Page 20

Case 4:17-cr-00068-BMM Document 183 Filed 04110119 Page 18 of 27

proves

"as troubling as it is unjustifiable." Meling, 47 F.3d at 1554. Bennett has

satisfied the first Franks hearing prong. Upon review of Bennett's allegations, the
Court determines that Bennett has established that one fact had been omitted with
the intent to mislead—Bennett's acquittal of Felony Incest in state court on August
10, 2016.

A. Materiality
The better practice would have been for Detective Price to have included the
acquittal in his affidavit in support of the search warrant. The Court must do more
than evaluate best practices. The Court instead must evaluate whether Detective
Price's affidavit, bolstered with Bennett's acquittal in state court, would have
provided probable cause for the state judge to have issued the warrant as required
by the Fourth Amendment. In this regard, Bennett must "show that these
deceptions are material, that is, he has to show that the district judge could not
have found probable cause supporting" the warrant to search Bennett's cell phone
if the district judge had been apprised of Bennett's acquittal. Meling, 47 F.3d at
1554. "The key inquiry is 'whether probable cause remains once the evidence
presented to the magistrate judge is supplemented with the challenged omissions.'"
Perkins, 850 F.3d at 1119 (citation omitted).

"[N]o Warrants shall issue, but upon probable cause supported by Oath or
affirmation, and particularly describing the place to be searched, and the persons or
18

ADDENDUM - Page 21

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 19 of 27

things to be seized." U.S. Const. amend. IV. "The validity of a search warrant
depends upon the sufficiency of what is found within the four corners of the
underlying affidavit." United States v. Taylor, 716 F.2d 701, 705 (9th Cir. 1983)
(citing United States v. Martinez, 588 F.2d 1227, 1234 (9th Cir. 1978)). The Court
must void the search warrant as fruit of the poisonous tree "if probable cause [is]
lacking on the face of' the modified affidavit. Franks, 438 U.S. at 156.
The probable cause analysis "involve[s] a close scrutiny of the facts
supporting a law officer's belief that evidence of crime can be found in the place of
search." United States v. Brooks, 367 F.3d 1128, 1133 (9th Cir. 2004). Probable
cause represents "a practical, nontechnical conception." Brinegar v. United States,
338 U.S. 160, 176 (1949). Probable cause seeks to balance the need to "safeguard
citizens from rash and unreasonable interferences" with the need to provide
officers "fair leeway for enforcing the law in the community's protection." Id.
"[P]robable cause exists when there exists 'a fair probability or substantial chance
of criminal activity." Brooks, 367 F.3d at 1133-34 (quoting United States v.
Alaimalo, 313 F.3d 1188, 193 (9th Cir. 2002)). "[P]robable cause does not require

a certainty . . . that criminal activity took place." Brooks, 367 F.3d at 1134. The
Court examines the totality of the circumstances "known to the officer to determine
whether probable cause existed." Id.

19

ADDENDUM - Page 22

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 20 of 27

The Court's inclusion of Bennett's acquittal leads the search warrant
affidavit now to read as follows:
On August 23, 2016, GFPD Detective Price received a call from child
counselor Robin Castle. Castle had been seeing 9 year old Jane Doe in
relation to sexual abuse by her step-father, Brandon Bennett. A jury
acquitted Bennett of the charge of Felony Incest on August 19, 2019.
Bennett's Felony Incest charge was based on Doe's allegations that
Bennett was sexually abusing her. Castle informed Price that Doe had
disclosed that Bennett had taken pictures of Doe naked with his cell phone
while making her pose in certain positions. Castle informed Doe's mother
and Doe's mother brought the cell phone to Castle's office.
Detective Price met with Castle and Doe's mother at Castle's office. Doe's
mother informed Detective Price that the phone belonged to Bennett and that
she tried to get into the phone herself to look at it but that she did not know
the passcode. Doe's mother provided the phone to Detective Price and a
forensic interview was scheduled for Doe.
On August 24, 2016, Detective Noah Scott performed a forensic interview
with Doe. Doe disclosed that Bennett "hurt her." Bennett took pictures of
Doe "down there" referring to her vaginal area. Bennett also took pictures of
her chest. All of these pictures were taken with Bennett's phone. Doe also
reported that Bennett touched her in the vaginal and chest area. She stated
that he touched under her clothes with his "little willy thingy" and took
pictures with his phone while touching her. Doe reported that this all
occurred at their house in her mom's room. The jury had heard similar
evidence from Doe of alleged sexual abuse at the Felony Incest trial in
state court.
Doe disclosed that when Bennett took the pictures he made Doe spread her
legs and lift her legs up while she laid on her back. Doe felt scared when this
happened and reported that only she and Bennett were in the room while he
did this and while he took the pictures.
After this interview, Detective Price spoke with Doe's mother. Doe's mother
reported that this was Bennett's only phone and that he had used it for at
least a year prior to him being arrested in October 2015 on the Felony
Incest charge. Doe's mother stated that after he was arrested she tried to get
20

ADDENDUM - Page 23

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 21 of 27

into the phone as she was suspected that Bennett looked at child
pornography, however she could not access the phone as it was protected by
a passcode. (sic).
(Doc. 142-2 at 1-2) (modifications and emphasis added).
The inclusion of the Bennett's acquittal clouds the following facts: (1) that
"Castle had been seeing 9 year old Jane Doe in relation to sexual abuse by her stepfather, Brandon Bennett;" (2) that "Doe also reported that Bennett touched her in
the vaginal and chest area. She stated that he touched under her clothes with his
'little willy thingy;" and (3) that Bennett had been "arrested in October 2015."
(Doc. 142-2 at 1-2.) These facts—though admittedly related to Bennett's
acquittal—also provide context for Doe's allegation that Bennett had taken photos
of him hands on abusing her.
The fact that a jury had acquitted Bennett presents one reasonable
conclusion that the State had failed to prove beyond a reasonable doubt that
Bennett was guilty of Felony Incest. The Supreme Court long has recognized that
"[w]hatever evidence may be necessary to establish probable cause in a given case,
however, it is clear that it never need rise to the level required to prove guilty
beyond a reasonable doubt." United States v. Watson, 423 U.S. 411, 431 n. 4
(1946). Bennett's acquittal does not necessarily negate the fact that probable cause
existed for the State to charge Bennett with Felony Incest.

21

ADDENDUM - Page 24

Case 4:17-cr-00068-BMM Document 183 Filed 04/10119 Page 22 of 27

The other information included in the warrant further bolsters the clouded
facts noted above. The search warrant affidavit alleged in sufficient detail that
Bennett had posed Doe in certain positions when he had taken photos of her. (Doc.
142-2 at 2.) The affidavit likewise specified the areas of Doe's body of which
Bennett had taken photos. Id. The affidavit further explained that only Bennett and
Doe were in the room when he had taken the inappropriate photos. Id. The affidavit
further clarified Bennett had used his cell phones to take the said photos of Doe. Id.
And finally, the affidavit included a claim that D.D. had suspected that Bennett had
used his cell phone to look at child pornography. Id.
The Court determines that probable cause remains even after the Court has
supplemented the evidence presented to Judge Pinski with Bennett's acquittal on
the Felony Incest charge. See Perkins, 850 F.3d at 1119. The Court must void the
search warrant as fruit of the poisonous tree "if probable cause [is] lacking on the
face of" the modified affidavit. Franks, 438 U.S. at 156. Probable cause to search
Bennett's cell phone exists on the face of the modified affidavit in support of the
search warrant. Bennett's motion to suppress must be denied. The jury will decide
whether the government's evidence rises to the level required to prove guilt
beyond a reasonable doubt. See Watson, 423 U.S. at 431 n.4.

22

ADDENDUM - Page 25

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 23 of 27

I. Motion for Bill of Particulars
The Grand Jury indicted Bennett on two counts: Sexual Exploitation of a
Child, in violation of 18 U.S.C. § 2251(a) (Count I) and Receipt of Child
Pornography, in violation of 18 U.S.C. § 2252(a)(2) (Count II). (Doc. 1.) Count I
provides as follows:
That on or about August 14, 2015, in Cascade County, in the State and
District of Montana and elsewhere, the defendant, BRANDON CORDELL
BENNETT, did employ, use, persuade, induce, entice, and coerce and
attempt to employ, use, persuade, induce, entice and coerce any minor, Jane
Doe, who is known to the defendant but whose name is withheld to protect
her identity, to engage in sexually explicit conduct for the purpose of
producing any visual depiction of such conduct, using materials that have
been mailed, shipped, and transported in and affecting interstate and foreign
commerce by any means, in violation of 18 U.S.C. § 2251(a).

Id. at 2.
Bennett argues that the indictment is deficient as none of the discovery
explains how the Government an-ived at the date of on or about August 14, 2015.
(Doc. 146 at 2.) The Government admitted in its brief and during the status
conference that the date in the Indictment incorrectly identified the time of the
alleged offense. (Does. 151, 155 at 14.)
Federal Rule of Criminal Procedure 7(f) authorizes the Court to "direct the
government to file a bill of particulars." The defendant "may move for a bill of
particulars before or within 14 days after arraignment or at a later time if the court
23

ADDENDUM - Page 26

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 24 of 27

permits." Fed. R. Crim. P. 7(f). "The government may amend a bill of particulars
subject to such conditions as justice requires." Id. The Court should grant a motion
for a bill of particulars where the record indicates that the defendant may be taken
by surprise in the progress of the trial or that his substantial rights would be
prejudiced in any way by the refuse to require the bill of particulars. Wong Tai v.
United States, 273 U.S. 77, 82 (1927).

The Government filed a Superseding Indictment on April 4, 2019. (Doc.
164.) Count I of the Superseding Indictment charges as follows:
Between on or about January 2015 and October 2105, in Cascade County in
the State and District of Montana and elsewhere, the defendant, BRANDON
CORDELL BENNETT, did employ, use, persuade, induce, entice, and
coerce and attempt to employ, use, persuade, induce, entice and coerce any
minor, Jane Doe, who is known to the defendant but whose name is
withheld to protect her identity, to engage in sexually explicit conduct for
the purpose of producing any visual depiction of such conduct, using
materials that have been mailed, shipped, and transported in and affecting
interstate and foreign commerce by any means, in violation of 18 U.S.C. §
2251(a).

Id. at 2. The filing of the Superseding Indictment rectifies Bennett's alleged
concern.

Bennett's Motion for a Bill of Particulars must be denied as moot.

II. Motion for Pretrial Judgment of Acquittal

Bennett finally moves this Court for a pretrial judgment of acquittal on
Count I of the Superseding Indictment. (Doc. 168.) Bennett contends that the
"absence of inappropriate images of Jane Doe on Brandon's phone is near
24

ADDENDUM - Page 27

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 25 of 27

conclusive that Jane Doe's August 23, 2016 accusation was not true." (Doc. 169 at
4.) Bennett argues that the absence of inappropriate images likewise means that the
Government "no longer has a good faith basis for proceeding with Count I." Id.
Bennett further argues that there still exists no basis for the dates alleged in Count
I. Id. at 5.
The Government contends that Bennett's motion proves untimely as there
exists no good cause basis for Bennett filing his motion past the March 15, 2019,
motions deadline. (Doc. 170 at 6.) Federal Rule of Criminal Procedure 12(b)(3)
governs pretrial motions. Rule 12(b)(3) provides as follows:
The following defenses, objections, and requests must be raised by pretrial
motion if the basis for the motion is then reasonably available and the
motion can be determined without a trial on the merits: . . . (B) a defect in
the indictment or information, including: . . . (v) failure to state an offense.
Fed. R. Crim. P. 12(b)(3). The Court "may. . . set a deadline for the parties to
make pretrial motions." Fed. R. Crim. P. 12(c)(1). "If a party does not meet the
deadline for making a Rule 12(b)(3) motion, the motion is untimely. But a court
may consider the defense, objection, or request if the party shows good cause."
Fed. R. Crim. P. 12(c)(3).
The Court set a motions deadline of March 15, 2019. The Government filed
the Superseding Indictment on April 5, 2019. (Doc. 164.) The Court agrees with
the Government that Count I of the Superseding Indictment remains substantially
similar to Count I of the Indictment. The change of the alleged date in Count I of
25

ADDENDUM - Page 28

Case 4:17-cr-00068-BMM Document 183 Filed 04110/19 Page 26 of 27

the Superseding Indictment supports, however, a showing of good cause. Bennett's
motion proves timely.
The Government alternatively contends that Bennett's motion should be
denied based on the merits as Bennett's motion masks itself as a motion for
summary judgment. (Doc. 170 at 6.) There exists "no equivalent in criminal
procedure to the motion for summary judgment that may be made in a civil case."
United States v. Nabors, 45 F.3d 238, 240 (8th Cir. 1995). In a criminal case "the

government has no duty to reveal all of its proof before trial." Id. The Court will
treat Bennett's Motion for Pretrial Judgment of Acquittal as a Motion to Dismiss
Count I of the Indictment.
The government must provide in the indictment "a plain, concise, and
definite written statement of the essential facts constituting the offense charged. .
." Fed. R. Crim. P. 7(c)(1). "[A]n indictment is sufficient if it, first, contains the
elements of the offense charged and fairly informs the defendant of the charge
against him he must defend, and, second, enables him to plead an acquittal or
conviction in bar of future prosecutions for the same offense." United States v.
Bailey, 444 U.S. 394, 414 (1980).

"In cases where the indictment tracks the words of the statute charging the
offense, the indictment will be held sufficient so long as the words unambiguously
set forth all the elements necessary to constitute the offense." United States v.
26

ADDENDUM - Page 29

Case 4:17-cr-00068-BMM Document 183 Filed 04/10/19 Page 27 of 27

Davis, 336 F.3d 920, 922 (9th Cir. 2003) (internal quotations and citation omitted).
Count I of the Superseding Indictment tracks the language of 18 U.S.C. § 2251(a).
Count I of the Superseding Indictment "unambiguously set[s] forth all the elements
necessary to constitute" Sexual Exploitation of a Child, in violation of 18 U.S.C. §
2251(a). Davis, 336 F.3d at 922. The Government has met its Rule 7(c)(1)
obligations.
Accordingly, IT IS ORDERED:
1. Bennett's Motion to Suppress (Doc. 141) is DENIED.
2. Bennett's Motion for Bill of Particulars (Doc. 145) is DENIED AS
MOOT.
3. Bennett's Motion for Pretrial Judgment of Acquittal, characterized as a
Motion to Dismiss Count I of the Indictment (Doc. 168) is DENIED.
DATED this 10th day of April, 2019.

Brian Morris
United States District Court Judge

27

ADDENDUM - Page 30

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 1 of 28

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
GREAT FALLS DIVISION

UNITED STATES OF AMERICA,

CR-17-68-GF-BMM

Plaintiff,
vs.
AMENDED ORDER
BRANDON CORDELL BENNETT,
Defendant.

Defendant Brandon Cordell Bennett moves this Court to suppress evidence
obtained from his cell phone pursuant to a search warrant issued by a Montana
state district court judge. (Doc. 141.) Bennett also filed a Motion for a Bill of
Particulars (Doc. 145) and a Motion for Pretrial Judgement of Acquittal (Doc.
168). The Court conducted a hearing on the instant motioris on April 8, 2019.
(Doc. 174.)
BACKGROUND
The Great Falls Police Department ("GFPD") arrested Bennett on October
13, 2015, in response to an allegation that Bennett had sexually abused his step
daughter, Jane Doe. (Doc. 143-2.) Bennett was arrested at his place of
employment—O'Reilly Auto Parts. (Doe. 142-3 at 2.) Officer Jeremy Parks was

1

ADDENDUM - Page 31

Case 4:17-cr-00068-BMM Document 198 Piled 04/16/19 Page 2 of 28

instructed to check the O'Reilly Auto Parts' parking lot for Bennett's vehicle to see
whether Bennett's cell phone was located inside the vehicle. Id. Officer Parks
observed a cell phone located on the passenger seat. Id. Officer Parks requested
that S&C Auto, Inc. tow Bennett's vehicle to the GFPD. Id. Officer Parks sealed
Bennett's vehicle with evidence tape. Id.
GFPD assigned Detective Adam Price to follow up on the initial
investigation into Doe's allegation against Bennett on the date of Bennett's arrest.
(Doc. 143-5 at 1.) Cascade County Deputy County Attorney Josh Racki informed
Detective Price "that there was not enough probable cause to seize and/or search
[Bennett's] phone." (Doc. 143-5 at 3.) GFPD eventually arranged to have
Bennett's vehicle towed back to his residence that he shared with D.D., Doe's
mother. Id.
The State of Montana charged Bennett by Information in the Eighth Judicial
District, Cascade County, with Incest, a felony, in violation of Montana Code
Annotated § 45-5-507, on October 20, 2015. (Does. 143-2, 142-6 at 1.) The case
proceeded to trial. A jury found Bennett not guilty of this offense on August 10,
2016. (Doc. 143-8 at 8-9.)
Robin Castle, Doe's counselor, contacted Detective Price on August 23,
2016. (Doc. 143-1 at 4.) Doe had been seeing Castle since November of 2015,
following her earlier disclosure of sexual abuse by Bennett. (Doc. 173-1 at 24.)
2

ADDENDUM - Page 32

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 3 of 28

Doe had confided in Castle that Bennett "had taken photos of [Doe] naked with his
cell phone while making her pose in certain positions." Id. Castle informed
Detective Price that D.D., currently was at Castle's office. Id. Castle reported that
D.D. was in possession of Bennett's cell phone. Id. D.D. provided Detective Price

with Bennett's cell phone at Castle's office. Id.
Detective Scott conducted a forensic interview with Doe on August 24,
2016. (Docs. 143-1 at 4, 144, Exhibit Q.) Doe disclosed, in relevant part, that

Bennett had taken photos of Doe "down there" and of her upper body. Id. Doe
explained that Bennett had taken photos of Doe while he was touching her. Id.
Bennett allegedly made Doe spread her legs and make them go up while she was
laying on her back. Id. Doe repeated that Bennett had used his cell phone to take
the photos of her. Id.
Detective Price applied for a warrant to search Bennett's cell phone on
August 31, 2016. (Doc. 142-2.) Detective Price attested to the following in his
affidavit in support of the search warrant:
On August 23, 2016, GFPD Detective Price received a call from child
counselor Robin Castle. Castle had been seeing 9 year old Jane Doe in
relation to sexual abuse by her step-father, Brandon Bennett. Castle
informed Price that Doe had disclosed that Bennett had taken pictures of
Doe naked with his cell phone while making her pose in certain positions.
Castle informed Doe's mother and Doe's mother brought the cell phone to
Castle's office.
Detective Price met with Castle and Doe's mother at Castle's office. Doe's
mother informed Detective Price that the phone belonged to Bennett and that
3

ADDENDUM - Page 33

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 4 of 28

she tried to get into the phone herself to look at it but that she did not know
the passcode. Doe's mother provided the phone to Detective Price and a
forensic interview was scheduled for Doe.
On August 24, 2016, Detective Noah Scott performed a forensic interview
with Doe. Doe disclosed that Bennett "hurt her." Bennett took pictures of
Doe "down there" referring to her vaginal area. Bennett also took pictures of
her chest. All of these pictures were taken with Bennett's phone. Doe also
reported that Bennett touched her in the vaginal and chest area. She stated
that he touched under her clothes with his "little willy thingy" and took
pictures with his phone while touching her. Doe reported that this all
occurred at their house in her morn's room.
Doe disclosed that when Bennett took the pictures he made Doe spread her
legs and lift her legs up while she laid on her back. Doe felt scared when this
happened and reported that only she and Bennett were in the room while he
did this and while he took the pictures.
After this interview, Detective Price spoke with Doe's mother. Doe's mother
reported that this was Bennett's only phone and that he had used it for at
least a year prior to him being arrested in October 2015. Doe's mother stated
that after he was arrested she tried to get into the phone as she was suspected
that Bennett looked at child pornography, however she could not access the
phone as it was protected by a passcode. (sic).
(Doc. 142-2 at 1-2.) Montana State District Court Judge Greg Pinski issued the
search warrant that same day. Id. at 4.
Detective Price extracted data from Bennett's cell phone on September 1,
2016. (Doc. 142 at 12.) Detective Price observed that the extracted data contained
mostly images of child pornography. Id. Law enforcement officers obtained a
series of wan-ants between September 1, 2016 and March of 2017, to search
Bennett's cell phone. Id. Law enforcement recovered a total of 1,043 images of
child pornography from Bennett's cell phone. Id.
4

ADDENDUM - Page 34

Case 4:17-cr-00068-BMM Document 198 Filed 04116/19 Page 5 of 28

The grand jury indicted Bennett on October 5, 2017, on two counts: Sexual
Exploitation of a Child, in violation of 18 U.S.C. § 2251(a) (Count I), and Receipt
of Child Pornography, in violation of 18 U.S.C. § 2252(a)(2) (Count II). (Doc. 1.)
The Government filed a Superseding Indictment on April 4, 2019. (Doc. 164.) The
Superseding Indictment alleges the same two counts that had been alleged in the
Indictment with one modification—the date of conduct was changed in Count I. Id.
at 2.
DISCUSSION
The Court will address first whether Bennett's claim entitles him to a Franks
hearing. Second, the Court will analyze whether Bennett's Franks hearing warrants
suppression of evidence from Bennett's cell phone obtained subsequent to a search
warrant. Third, the Court will determine whether Bennett's claim wan -ants
dismissal of Count I of the Superseding Indictment.
I. Franks Hearing and Motion to Suppress
Bennett asserts that the omission of facts relating to Doe's credibility, Doe's
mother's credibility, a parenting plan that D.D. had filed in state court, and the
prior history of Bennett's state case undermines Judge Pinski's determination of
probable cause to search Bennett's phone. (Doc. 142 at 15-17.) Bennett's argument
requires the Court to address first whether these omissions entitle Bennett to a
hearing pursuant to Franks v. Delaware, 438 U.S. 154, 171 (1978).
5

ADDENDUM - Page 35

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 6 of 28

"[W]here the defendant makes a substantial preliminary showing that a false
statement knowingly and intentionally, or with reckless disregard for the truth, was
included by the affiant in the warrant affidavit, and if the allegedly false statement
is necessary to the finding of probable cause, the Fourth Amendment requires that
a hearing be held at the defendant's request." Franks, 438 U.S. at 155-56. The
Fourth Amendment likewise permits a defendant to challenge a warrant pursuant to
Franks when a valid affidavit "contains deliberate or reckless omissions of facts

that tend to mislead." United States v. Stanert, 762 F.2d 775, 781 (9th Cir. 1985).
A defendant proves entitled to a Franks hearing if he establishes the
following factors:
(1) the defendant must allege specifically which portions of the warrant
affidavit are claimed to be false; (2) the defendant must contend that the
false statements or omissions were deliberately or recklessly made; (3) a
detailed offer of proof, including affidavits, must accompany the allegations;
(4) the veracity of only the affiant must be challenged; and (5) the
challenged statements must be necessary to find probable cause.
United States v. DiCesare, 765 F.2d 890, 894-95 (9th Cir. 1985) (citation omitted);

see also United States v. Bennett, 219 F.3d 1117, 1124 (9th Cir. 2000) ("A
defendant is entitled to a Franks hearing only if he makes a two-fold showing:
intentional or reckless inclusion or omission, and materiality."). Essentially, the
defendant must make "a substantial preliminary showing that the affidavit
contain[ed] intentionally or recklessly false statements, and. . . [that] the affidavit
purged of its falsities would not be sufficient to support a finding of probable
6

ADDENDUM - Page 36

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 7 of 28

cause." United States v. Meling, 47 F.3d 1546, 1553 (9th Cir. 1995) (internal
quotations and citation omitted).
The Court determined at Bennett's motion hearing that Bennett had made a
substantial showing to establish the five DiCesare factors. First, Bennett has
"alleg[ed] specifically" that Detective Price's affidavit as a whole remains false
due to Detective Price's failure to include nine omitted facts. DiCesare, 765 F.2d
at 894-95. Second, Bennett contends that Detective Price deliberately omitted
those facts from his affidavit. Third, though Bennett fails to accompany his
allegations with "a detailed offer of proof," Bennett does provide a combination of
direct and circumstantial evidence to support his assertions. DiCesare, 765 F.2d at
894-95. Fourth, Bennett's assertions challenge the veracity of Detective Price—the
detective who has been investigating Bennett's case since October 13, 2015.
Finally, the alleged omissions from Detective Price's affidavit prove necessary to
the finding of probable cause to search Bennett's cell phone. These facts entitle
Bennett to a Franks hearing.
Once a defendant earns a Franks hearing, his burden of proof changes. A
defendant at a Franks hearing must prove the following elements by a
preponderance of the evidence: "that there was (1) a knowing and intentional
falsehood or a reckless disregard for the truth; and (2) that the challenged statement

7

ADDENDUM - Page 37

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 8 of 28

was essential to the finding of probable cause." United States v. Dozier, 844 F.2d
701, 705 (9th Cir. 1988).
A. Intentional or Reckless Omissions
Bennett specifically alleges that the following facts should have been
included in Detective Price's affidavit in support of the search warrant application:
(1) that a jury acquitted Bennett on a state incest charge that dealt with the same
complaining witness two weeks before the Doe's August 23, 2019, disclosure; (2)
that Doe never disclosed in any pretrial interviews that Bennett had taken photos of
her; rather, Doe denied that Bennett had taken photos of her; (3) that Doe did not
report to her counselor before the state trial that Bennett had taken inappropriate
photos of her; (4) Doe likewise did not testify at trial that Bennett had taken photos
of her; (5) that Doe made her allegations in August of 2016 and that Bennett had
been incarcerated since October of 2015; (6) that law enforcement previously
lacked probable cause to apply for a warrant to search Bennett's cell phone; (7)
that Doe's mother had sought advice from Detective Price on how best to prevent
Bennett from having contact with their biological daughter; (8) that Doe's mother
previously represented that she did not believe that Bennett was interested in
children and only made the representation to law enforcement that she suspected
Bennett looked at child pornography after Bennett had been acquitted; and (9) that
Doe's mother previously stated that none of her children had reported any sexual
8

ADDENDUM - Page 38

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 9 of 28

abuse or Bennett having taken inappropriate photos of the children. (Doc. 142 at
15-16.)
"[W]hen the Fourth Amendment demands a factual showing sufficient to
compromise 'probable cause,' the obvious assumption is that there will be a
truthfid showing." United States v. Tate, 524 F.3d 449, 164-65 (4th Cir. 2008)
(citation omitted) (emphasis in original). "Truthful" does not require that "every
fact recited in the warrant affidavit is necessarily correct, for probable cause may
be founded upon hearsay and upon information received from informants, as well
as upon infon-nation within the affiant's own knowledge that sometimes must be
garnered hastily." Id. at 165. "Truthful" does mean that the "information put forth
is believed or appropriately accepted by the affiant as true." Id. "[A]llegations of
negligence or innocent mistake are insufficient." Id. at 454 (internal quotes and
citation omitted).
A defendant's burden increases when his allegations rely "on an omission,
rather than on a false affirmative statement." Tate, 524 F.3 d at 454. This enhanced
burden applies because "an affidavit offered to procure a search warrant cannot be
expected to include. . . every piece of information gathered in the course of an
investigation." Id. at 455 (internal quotations and citation omitted). "[B]ecause
every piece of information cannot be expected to be included, the very process of

9

ADDENDUM - Page 39

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 10 of 28

selecting facts to include for the demonstration of probable cause must also be a
deliberate process of omitting pieces of information." Id.
"[Merely showing an intentional omission of a fact from a warrant affidavit
does not fulfill Franks' requirements." Id. To satisfy the intentional or reckless
falsity requirement for an omission under Franks, the defendant must show that
facts were omitted "with the intent to make, or in reckless disregard of whether
they thereby made, the affidavit misleading." Id. (citation omitted). In other words,
"the omission must be designed to mislead or must be made in reckless disregard
of whether [it] would mislead." Id. (internal quotations and citation omitted).
GFPD assigned Detective Price to Bennett's case at its inception. (Doc. 1435 at 1.) Detective Price personally had interviewed D.D. on October 13, 2015.
(Doc. 143-5 at 1.) Detective Price had observed Doe's first forensic interview on
October 13, 2015. Id. D.D. sought Detective Price's advice on "how best to
prevent [Bennett] from having contact with his daughter." (Doc. 144, Exhibit H.)
D.D. ultimately filed a proposed parenting plan for the daughter that she shared
with Bennett on November 12, 2015. (Doc. 143-6.) And the Cascade County
Attorney's Office previously had informed Detective Price that he lacked probable
cause to search Bennett's cell phone subsequent to Bennett's October 2015 arrest.
(Doc. 143-5 at 3.) Detective Price testified at Bennett's state trial. (Doc. 143-8 at
4.)
10

ADDENDUM - Page 40

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 11 of 28

It proves inconceivable that Detective Price lacked awareness of Bennett's
acquittal on his state Felony Incest charge. See (Docs. 143-8, 143-1 at 5.) All but
one alleged fact—D.D.'s parenting plan—likely were known to Detective Price at
the time that he provided the August 31, 2016, affidavit in support of the search
warrant application to Judge Pinski. The Court will discuss these omitted facts to
determine whether Detective Price intentionally or recklessly omitted these facts in
an intent to mislead Judge Pinski.
1. Doe's Previous Disclosure

Bennett argues that the search warrant affidavit should have included the
fact that Doe never disclosed before trial that Bennett had taken inappropriate
photos of her. (Doc. 142 at 15-16.) Doe underwent a forensic interview on October
13, 2015. (Does. 143-5 at 1, 144 at Exhibit H.) The interviewer asked: "[h]as
[Bennett] ever taken photos of you?" (Does. 155 at 11, 144 at Exhibit H.) Doe
responded: "[n]o. I don't know." Id. Doe later elaborated stating, lojnly with me
and Heather." Id. The interviewer failed to clarify Doe's ambiguous response. See
id. Doe's statements nonetheless fail to rise to the level of a categorical denial. It

does not appear that Detective Price's omission of Doe's previous response to an
ambiguous question was not "designed to mislead" the reviewing judge. Tate, 524
F.3d at 455 (citation omitted).

11

ADDENDUM - Page 41

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 12 of 28

2. D.D.'s Previous Statements
Bennett likewise alleges that D.D. never had reported to law enforcement
that she suspected Bennett had viewed child pornography before Bennett's state
trial. (Doe. 142 at 16.) Bennett further contends that D.D. never had disclosed that

her children had reported that Bennett took inappropriate photos of them before
Bennett's state trial. Id. D.D. had reported to Detective Price in an interview that
she believed that Bennett used his cell phone to view pornography. (Doe. 144 at

Exhibit H.) D.D. admitted to being "unaware" of whether he had any child
pornography on his phone. (Doc. 143-5 at 3.) D.D. admitting that she had been
unaware whether Bennett viewed child pornography at her initial interview fails to
amount to an inconsistent statement that needed to have been included in Detective
Price's affidavit in support of the search warrant. Detective Price's omission of
D.D.'s lack of knowledge as to whether Bennett viewed child pornography was not
"designed to mislead" the reviewing judge. Tate, 524 F.3d at 455 (citation
omitted).
3. Parenting Plan
D.D. claimed that Bennett viewed child pornography on his cell phone in
three different portions of a parenting plan filed in an ancillary proceeding to
Bennett's state criminal case. (Doc. 143-6 at 8, 13, 14.) D.D. admittedly sought
Detective Price's advice about how to ensure that Bennett did not have custody of
12

ADDENDUM - Page 42

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 13 of 28

his daughter. (Doc. 144 at Exhibit H.) Nothing in the record suggests, however,
that Detective Price knew anything further about the parenting plan or otherwise
what D.D. had stated in the parenting plan. Detective Price's failure to include
details about D.D.'s filed parenting plan therefore had not been "designed to
mislead" Judge Pinski. Tate, 524 F.3d at 455 (citation omitted).
4. Previous Inquiry into Probable Cause to Search

Detective Price contacted the Cascade County Attorney's Office on the day
of Bennett's arrest. (Doc. 143-5 at 3.) Detective Price informed Deputy County
Attorney Racki of all the information that Detective Price knew in relation to the
cell phone and Bennett. See id. Deputy County Attorney Racki explained to
Detective Price that he lacked probable cause to search the cell phone. (Doc. 143-5
at 3.) Detective Price accordingly did not seize or search Bennett's cell phone.
Detective Price did not apply for a warrant to search Bennett's cell phone on that
date. Detective Price's failure to include the fact that he never applied for a search
warrant on

October 13, 2015, to search Bennett's cell phone as he knew that no

probable cause existed was not "designed to mislead" Judge Pinski. Tate, 524 F.3d
at

455 (citation omitted).
5. Bennett's Acquittal

Bennett alleges his acquittal in state court—only two weeks before Doe's
disclosure—should have been disclosed in the affidavit supporting the warrant to
13

ADDENDUM - Page 43

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 14 of 28

search Bennett's cell phone. (Doc. 142 at 15.) Detective Price testified that he
contacted Deputy County Attorney Ball, the lead prosecutor in Bennett's previous
state case, following Doe's disclosure to Castle and Doe's forensic interview.
(Doe. 174.) Detective Price explained that he contacted Deputy County Attorney
Ball regarding concerns about whether he could investigate this new allegation in
light of Bennett's acquittal on the felony incest charge. Id. Detective Price
represented that Deputy County Attorney Ball stated that the County Attorney's
Office would be treating Doe's recent disclosure as a new case. Id.
Deputy County Attorney Ball drafted the affidavit in support of the search
warrant based on Detective Price's information related to Doe's allegation that
Bennett had taken photos of her. Id. Detective Price signed the affidavit. Id.
Detective Price admitted that he decided against including Bennett's acquittal in
the affidavit. Id. Detective Price reasoned that he thought inclusion of the
acquittal, and of the information underlying Bennett's previous felony incest
charge, would prejudice Bennett. Id. Detective Price and Deputy County Attorney
Ball elected therefore to keep all information from Bennett's felony incest charge
and acquittal separate from Doe's new allegation that Bennett had taken
inappropriate photos of her. Id.
Detective Price testified that he elected also not to include previous
investigations into allegations of sexual abuse by Bennett. Id. Detective Price
14

ADDENDUM - Page 44

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 15 of 28

testified that he did include, however, that Doe was seeing Castle in relation to
sexual abuse by Bennett. Id. Detective Price further testified that he included Doe's
disclosure of instances of hands on abuse because Doe had relayed those instances
during her August 24, 2019, forensic interview. Id.
The facts in United States v. Perkins, 850 F.3d 1109 (9th Cir. 2017), though
admittedly not identical, prove most analogous to Bennett's alleged omission. The
defendant, Charles Perkins, was traveling from Chile to his home in Washington
state. Perkins, 850 F.3d at 1112. Canadian Border Services Agency ("CBSA")
officers stopped Perkins at the Toronto International Airport upon discovering that
Perkins was a registered sex offender. Id. A CBSA officer subsequently searched
Perkins laptop and discovered two images that the CBSA officer believed to be
child pornography. Id. at 1113. Canadian officials arrested Perkins for possession
of child pornography. Id. Constable Andrew Ullock reviewed the images and
ultimately concluded that the images failed to constitute child pornography. Id.
CB SA forwarded Perkins case to United States Department of Homeland
Security Special Agent Tim Ensley. Id. Agent Ensley received the two images in
question on January 14, 2013. Id. Agent Ensley drafted an affidavit in support of a
warrant to search Perkins's home. Id. Agent Ensley drafted the affidavit before he
had received the two images. Id. Agent Ensley's "affidavit explained that Canadian
officers stopped Perkins because of his prior convictions and arrested him after
15

ADDENDUM - Page 45

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 16 of 28

reviewing the images." Id. His affidavit failed to disclose, however, that the
Canadian officers had dropped the charge against Perkins once they discovered
that the images did not constitute child pornography. Id. at 1113-14. The
magistrate judge issued a search warrant to Agent Ensley. Id. at 1114.
The district court conducted a Franks hearing and concluded that "Agent
Ensley did not intentionally or recklessly mislead the magistrate." Id. at 1115. The
district court denied Perkins's motion to suppress. Id. The Ninth Circuit reversed.
The district court clearly erred when it had concluded that "Agent Ensley did not
act with at least a reckless disregard for the truth." Id. at 1119. Agent Ensley
actively selected information to provide in his affidavit in support of the search
warrant that "bolster[ed] probable cause, while omitting information that did not."
Id. at 1117. Agent Ensley stated that Canadian officers had arrested Perkins after

having reviewed the two images. Id. Agent Ensley failed to disclose in his affidavit
that Canadian officials had dropped Perldns's charge after a "15-year veteran
officer, specializing in the investigation of child exploitation crimes, examined
those same two images and concluded they were not pornographic." Id. The Ninth
Circuit concluded that the affidavit "would not have supported probable cause" if

the omitted information had been included in the search warrant affidavit. Id.
Detective Price, like Agent Ensley in Perkins, failed to disclose the fact that
Bennett previously had been charged with, and acquitted of incest in state court16

ADDENDUM - Page 46

Case 4:17-cr-00068-BMM Document 198 Filed 04/16119 Page 17 of 28

a charged based on the allegations of the same complaining witness, Doe.
Detective Price testified that he elected to omit information underlying Bennett's
acquittal or the acquittal itself as Detective Price did not want to prejudice Bennett.
(Doc. 174.) Detective Price nonetheless elected to include the following
information related to Bennett's felony incest charge: (1) that "Castle had been
seeing 9 year old Jane Doe in relation to sexual abuse by her step-father, Brandon
Bennett;" (2) that "Doe reported that Bennett touched her in the vaginal and chest
area. She stated that he touched under her clothes with his 'little willy thingy;"
and (3) that Bennett was "arrested in October 2015." (Doc. 142-2 at 1, 2.)
Detective Price actively selected information to provide in his affidavit in support
of the search warrant that "bolster[ed] probable cause, while omitting information
that did not" when he elected to omit Bennett's acquittal, but include information
related to Bennett's conduct underlying the alleged incest. Perkins, 850 F.3d at
1117.
Detective Price testified that he sought legal advice from Deputy County
Attorney Ball regarding the search warrant and the preparation of the affidavit.
(Doc. 174.) The Court does not know the exact nature of the legal advice provided
by the County Attorney's office. Such advice was faulty. The apparent result of the
legal advice was Detective Price's failure to disclose in his affidavit Bennett's
acquittal on a similar charge that dealt with the same complaining witness. The
17

ADDENDUM - Page 47

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 18 of 28

deliberate or reckless omission by a government official, even if not the affiant,
can provide the basis to suppress evidence under Franks. United States v. DeLeon,
979 F.2d 761, 764 (9th Cir. 1992); Chism v. Washington, 661 F.3d 380, 392 (9th
Cir. 2011).
This failure to disclose Bennett's acquittal in Detective Price's affidavit
manipulated the inferences that Judge Pinski could draw because Detective Price
reported "less than the total story." Stanert, 762 F.2d at 781. This conclusion
proves especially true in light of Detective Price's affidavit having disclosed facts
related to Bennett's acquittal. The noticeable silence in Detective Price's affidavit
on Bennett's previous acquittal on a similar charge proves "as troubling as it is
unjustifiable." Meling, 47 F.3d at 1554. Bennett has satisfied the first Franks
hearing prong. Upon review of Bennett's allegations, the Court determines that
Bennett has established that one fact had been omitted with the intent to misleadBennett's acquittal of Felony Incest in state court on August 10, 2016.

B. Materiality
The better practice would have been for Detective Price to have included the
acquittal in his affidavit in support of the search warrant. The Court must do more
than evaluate best practices. The Court instead must evaluate whether Detective
Price's affidavit, bolstered with Bennett's acquittal in state court, would have
provided probable cause for the state judge to have issued the warrant as required
18

ADDENDUM - Page 48

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 19 of 28

by the Fourth Amendment. In this regard, Bennett must "show that these
deceptions are material; that is, he has to show that the district judge could not
have found probable cause supporting" the warrant to search Bennett's cell phone
if the district judge had been apprised of Bennett's acquittal. Meling, 47 F.3d at
1554. "The key inquiry is 'whether probable cause remains once the evidence
presented to the magistrate judge is supplemented with the challenged omissions."
Perkins, 850 F.3d at 1119 (citation omitted).

"[N]o Warrants shall issue, but upon probable cause supported by Oath or
affirmation, and particularly describing the place to be searched, and the persons or
things to be seized." U.S. Const. amend. IV. "The validity of a search warrant
depends upon the sufficiency of what is found within the four corners of the
underlying affidavit." United States v. Taylor, 716 F.2d 701, 705 (9th Cir. 1983)
(citing United States v. Martinez, 588 F.2d 1227, 1234 (9th Cir. 1978)). The Court
must void the search warrant as fruit of the poisonous tree "if probable cause [is]
lacking on the face of' the modified affidavit. Franks, 438 U.S. at 156.
The probable cause analysis "involvers1 a close scrutiny of the facts
supporting a law officer's belief that evidence of crime can be found in the place of
search." United States v. Brooks, 367 F.3d 1128, 1133 (9th Cir. 2004). Probable
cause represents "a practical, nontechnical conception." Brinegar v. United States,
338 U.S. 160, 176 (1949). Probable cause seeks to balance the need to "safeguard
19

ADDENDUM - Page 49

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 20 of 28

citizens from rash and unreasonable interferences" with the need to provide
officers "fair leeway for enforcing the law in the community's protection." Id.
"[P]robable cause exists when there exists 'a fair probability or substantial chance
of criminal activity." Brooks, 367 F.3d at 1133-34 (quoting United States v.
Alaiinalo, 313 F.3d 1188, 193 (9th Cir. 2002)). "[P]robable cause does not require

a certainty. . . that criminal activity took place." Brooks, 367 F.3d at 1134. The
Court examines the totality of the circumstances "known to the officer to
deterrnine whether probable cause existed." Id.
The Court's inclusion of Bennett's acquittal leads the search warrant
affidavit now to read as follows:
On August 23, 2016, GFPD Detective Price received a call from child
counselor Robin Castle. Castle had been seeing 9 year old Jane Doe in
relation to sexual abuse by her step-father, Brandon Bennett. A jury
acquitted Bennett of the charge of Felony Incest on August 19, 2019.
Bennett's Felony Incest charge was based on Doe's allegations that
Bennett was sexually abusing her. Castle informed Price that Doe had
disclosed that Bennett had taken pictures of Doe naked with his cell phone
while making her pose in certain positions. Castle informed Doe's mother
and Doe's mother brought the cell phone to Castle's office.
Detective Price met with Castle and Doe's mother at Castle's office. Doe's
mother informed Detective Price that the phone belonged to Bennett and that
she tried to get into the phone herself to look at it but that she did not know
the passcode. Doe's mother provided the phone to Detective Price and a
forensic interview was scheduled for Doe.
On August 24, 2016, Detective Noah Scott performed a forensic interview
with Doe. Doe disclosed that Bennett "hurt her." Bennett took pictures of
Doe "down there" referring to her vaginal area. Bennett also took pictures of
her chest. All of these pictures were taken with Bennett's phone. Doe also
20

ADDENDUM - Page 50

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 21 of 28

reported that Bennett touched her in the vaginal and chest area. She stated
that he touched under her clothes with his "little willy thingy" and took
pictures with his phone while touching her. Doe reported that this all
occurred at their house in her mom's room. The jury had heard similar
evidence from Doe of alleged sexual abuse at the Felony Incest trial in
state court.
Doe disclosed that when Bennett took the pictures he made Doe spread her
legs and lift her legs up while she laid on her back. Doe felt scared when this
happened and reported that only she and Bennett were in the room while he
did this and while he took the pictures.
After this interview, Detective Price spoke with Doe's mother. Doe's mother
reported that this was Bennett's only phone and that he had used it for at
least a year prior to him being arrested in October 2015 on the Felony
Incest charge. Doe's mother stated that after he was arrested she tried to get
into the phone as she was suspected that Bennett looked at child
pornography, however she could not access the phone as it was protected by
a passcode. (sic).
(Doc. 142-2 at 1-2) (modifications and emphasis added).
The inclusion of the Bennett's acquittal clouds the following facts: (1) that
"Castle had been seeing 9 year old Jane Doe in relation to sexual abuse by her
step-father, Brandon Bennett;" (2) that "Doe also reported that Bennett touched her
in the vaginal and chest area. She stated that he touched under her clothes with his
'little willy thingy;" and (3) that Bennett had been "arrested in October 2015."
(Doc. 142-2 at 1-2.) These facts—though admittedly related to Bennett's
acquittal—also provide context for Doe's allegation that Bennett had taken photos
of him hands on abusing her.

21

ADDENDUM - Page 51

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 22 of 28

The fact that a jury had acquitted Bennett presents one reasonable
conclusion that the State had failed to prove beyond a reasonable doubt that
Bennett was guilty of Felony Incest. The Supreme Court long has recognized that
"[w]hatever evidence may be necessary to establish probable cause in a given case,
however, it is clear that it never need rise to the level required to prove guilty
beyond a reasonable doubt." United States v. Watson, 423 U.S. 411, 431 n. 4
(1946). Bennett's acquittal does not necessarily negate the fact that probable cause
existed for the State to charge Bennett with Felony Incest.
The other information included in the warrant further bolsters the clouded
facts noted above. The search warrant affidavit alleged in sufficient detail that
Bennett had posed Doe in certain positions when he had taken photos of her. (Doc.
142-2 at 2.) The affidavit likewise specified the areas of Doe's body of which
Bennett had taken photos. Id. The affidavit further explained that only Bennett and
Doe were in the room when he had taken the inappropriate photos. Id. The
affidavit further clarified Bennett had used his cell phones to take the said photos
of Doe. Id. And finally, the affidavit included a claim that D.D. had suspected that
Bennett had used his cell phone to look at child pornography. Id.
The Court determines that probable cause remains even after the Court has
supplemented the evidence presented to Judge Pinski with Bennett's acquittal on
the Felony Incest charge. See Perkins, 850 F.3d at 1119. The Court must void the
22

ADDENDUM - Page 52

Case 4:17-cr-00068-BMM Document 198 Filed 04/16119 Page 23 of 28

search warrant as fruit of the poisonous tree "if probable cause [is] lacking on the
face of' the modified affidavit. Franks, 438 U.S. at 156. Probable cause to search
Bennett's cell phone exists on the face of the modified affidavit in support of the
search warrant. Bennett's motion to suppress must be denied. The jury will decide
whether the government's evidence rises to the level required to prove guilt
beyond a reasonable doubt. See Watson, 423 U.S. at 431 n.4.
II. Motion for Bill of Particulars

The Grand Jury indicted Bennett on two counts: Sexual Exploitation of a
Child, in violation of 18 U.S.C. § 2251(a) (Count I) and Receipt of Child
Pornography, in violation of 18 U.S.C. § 2252(a)(2) (Count II). (Doc. 1.) Count I
provides as follows:
That on or about August 14, 2015, in Cascade County, in the State and
District of Montana and elsewhere, the defendant, BRANDON CORDELL
BENNETT, did employ, use, persuade, induce, entice, and coerce and
attempt to employ, use, persuade, induce, entice and coerce any minor, Jane
Doe, who is known to the defendant but whose name is withheld to protect
her identity, to engage in sexually explicit conduct for the purpose of
producing any visual depiction of such conduct, using materials that have
been mailed, shipped, and transported in and affecting interstate and foreign
commerce by any means, in violation of 18 U.S.C. § 2251(a).
Id. at 2.

Bennett argues that the indictment is deficient as none of the discovery
explains how the Government arrived at the date of on or about August 14, 2015.
(Doc. 146 at 2.) The Government admitted in its brief and during the status
23

ADDENDUM - Page 53

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 24 of 28

conference that the date in the Indictment incorrectly identified the time of the
alleged offense. (Does. 151, 155 at 14.)
Federal Rule of Criminal Procedure 7(f) authorizes the Court to "direct the
government to file a bill of particulars." The defendant "may move for a bill of
particulars before or within 14 days after arraignment or at a later time if the court
permits." Fed. R. Crim. P. 7(f). "The government may amend a bill of particulars
subject to such conditions as justice requires." Id. The Court should grant a motion
for a bill of particulars where the record indicates that the defendant may be taken
by surprise in the progress of the trial or that his substantial rights would be
prejudiced in any way by the refuse to require the bill of particulars. Wong Tai v.
United States, 273 U.S. 77, 82 (1927).
The Government filed a Superseding Indictment on April 4, 2019. (Doc.
164.) Count I of the Superseding Indictment charges as follows:
Between on or about January 2015 and October 2105, in Cascade County in
the State and District of Montana and elsewhere, the defendant, BRANDON
CORDELL BENNETT, did employ, use, persuade, induce, entice, and
coerce and attempt to employ, use, persuade, induce, entice and coerce any
minor, Jane Doe, who is known to the defendant but whose name is
withheld to protect her identity, to engage in sexually explicit conduct for
the purpose of producing any visual depiction of such conduct, using
materials that have been mailed, shipped, and transported in and affecting
interstate and foreign commerce by any means, in violation of 18 U.S.C. §
2251(a).
Id. at 2. The filing of the Superseding Indictment rectifies Bennett's alleged
concern. Bennett's Motion for a Bill of Particulars must be denied as moot.
24

ADDENDUM - Page 54

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 25 of 28

Motion for Pretrial Judgment of Acquittal

Bennett finally moves this Court for a pretrial judgment of acquittal on
Count I of the Superseding Indictment. (Doc. 168.) Bennett contends that the
"absence of inappropriate images of Jane Doe on Brandon's phone is near
conclusive that Jane Doe's August 23, 2016 accusation was not true." (Doc. 169 at
4.) Bennett argues that the absence of inappropriate images likewise means that the
Government "no longer has a good faith basis for proceeding with Count I." Id.
Bennett further argues that there still exists no basis for the dates alleged in Count
I. Id. at 5.
The Government contends that Bennett's motion proves untimely as there
exists no good cause basis for Bennett filing his motion past the March 15, 2019,
motions deadline. (Doc. 170 at 6.) Federal Rule of Criminal Procedure 12(b)(3)
governs pretrial motions. Rule 12(b)(3) provides as follows:
The following defenses, objections, and requests must be raised by pretrial
motion if the basis for the motion is then reasonably available and the
motion can be determined without a trial on the merits: . . . (B) a defect in
the indictment or information, including: . . . (v) failure to state an offense.
Fed. R. Crim. P. 12(b)(3). The Court "may.. . set a deadline for the parties to
make pretrial motions." Fed. R. Crim. P. 12(c)(1). "If a party does not meet the
deadline for making a Rule 12(b)(3) motion, the motion is untimely. But a court
may consider the defense, objection, or request if the party shows good cause."
Fed. R. Crim. P. 12(c)(3).
25

ADDENDUM - Page 55

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 26 of 28

The Court set a motions deadline of March 15, 2019. The Government filed
the Superseding Indictment on April 5, 2019. (Doc. 164.) The Court agrees with
the Government that Count I of the Superseding Indictment remains substantially
similar to Count I of the Indictment. The change of the alleged date in Count I of
the Superseding Indictment supports, however, a showing of good cause. Bennett's
motion proves timely.
The Government alternatively contends that Bennett's motion should be
denied based on the merits as Bennett's motion masks itself as a motion for
summary judgment. (Doc. 170 at 6.) There exists "no equivalent in criminal
procedure to the motion for summary judgment that may be made in a civil case."
United States v. Nabors, 45 F.3d 238, 240 (8th Cir. 1995). In a criminal case "the

government has no duty to reveal all of its proof before trial." Id. The Court will
treat Bennett's Motion for Pretrial Judgment of Acquittal as a Motion to Dismiss
Count I of the Indictment.
The government must provide in the indictment "a plain, concise, and
definite written statement of the essential facts constituting the offense charged. .
." Fed. R. Crim. P. 7(c)(1). "[Ain indictment is sufficient if it, first, contains the
elements of the offense charged and fairly informs the defendant of the charge
against him he must defend, and, second, enables him to plead an acquittal or

26

ADDENDUM - Page 56

Case 4:17-cr-00068-BMM Document 198 Filed 04/16119 Page 27 of 28

conviction in bar of future prosecutions for the same offense." United States v.
Bailey, 444 U.S. 394, 414 (1980).
"In cases where the indictment tracks the words of the statute charging the
offense, the indictment will be held sufficient so long as the words unambiguously
set forth all the elements necessary to constitute the offense." United States v.
Davis, 336 F.3d 920, 922 (9th Cir. 2003) (internal quotations and citation omitted).
Count I of the Superseding Indictment tracks the language of 18 U.S.C. § 2251(a).
Count I of the Superseding Indictment "unambiguously set[s] forth all the elements
necessary to constitute" Sexual Exploitation of a Child, in violation of 18 U.S.C. §
2251(a). Davis, 336 F.3d at 922. The Government has met its Rule 7(c)(1)
obligations.
Accordingly, IT IS ORDERED:
1. Bennett's Motion to Suppress (Doc. 141) is DENIED.
2. Bennett's Motion for Bill of Particulars (Doc. 145) is DENIED AS
MOOT.
3. Bennett's Motion for Pretrial Judgment of Acquittal, characterized as a
Motion to Dismiss Count I of the Indictment (Doc. 168) is DENIED.

27

ADDENDUM - Page 57

Case 4:17-cr-00068-BMM Document 198 Filed 04/16/19 Page 28 of 28

DATED this 16th day of April, 2019.

Brian Morris
United States District Court Judge

28

ADDENDUM - Page 58

Case 4:17-cr-00068-BMM Document 142-2 Filed 03/15/19 Page 1 of 6

16-491

MONTANA EIGHTH JUDICIAL DISTRICT COURT, CASCADE COUNTY

IN THE MATTER OF THE SEARCH OF THE CONTENTS OF:
(I) A SAMSUNG GALAXY 53 CELLULAR PHONE, BLUE IN COLOR, BELONGING
TO BRANDON BENNETT
THE CELLULAR PHONE IS CURRENTLY IN THE CUSTODY OF THE GREAT FALLS
POLICE DEPARTMENT.
APPLICATION FOR SEARCH WARRANT
STATE OF MONTANA )
ss.
County of Cascade
COMES NOW, Detective Adam Price of the Great Falls Police Department, and

upon being first duly sworn under oath, and based on the following facts within his
personal knowledge and the collective knowledge of the officers of the Great Falls Police
Department, hereby deposes and says as set forth herein. Based on the following facts,
Detective Adam Price has knowledge and reason to now believe that that there is probable
cause to believe that the following offense has been committed in the City of Great Falls,
Cascade County, Montana:
Sexual Abuse of Children, a Felony, in violation of Mont. Code Ann § 45-5-626.
Incest, a Felony, in violation of Mont. Code Ann § 45-5-507.

The facts supporting this application are as follows:
On August 23, 2016, GFPD Detective Price received a call from child counselor
Robin Castle. Castle had been seeing 9 year old Jane Doe in relation to sexual abuse by
her step-father, Brandon Bennett_ Castle informed Price that Doe had disclosed that
Bennett had taken pictures of Doe naked with his cell phone while making her pose in

USAO-212
Exhibit A - Page 1

ADDENDUM - Page 59

Case 4:17-cr-00068-BMM Document 142-2 Filed 03/15/19 Page 2 of 6

16-491

certain positions. Castle informed Doe's mother and Doe's mother brought the cell phone
to Castle's office.
Detective Price met with Castle and Doe's mother at Castle's office. Doe's mother
informed Detective Price that the phone belonged to Bennett and that she tried to get into
the phone herself to look at it but that she did not know the passcode_ Doe's mother
provided the phone to Detective Price and a forensic interview was scheduled for Doe.
On August 24, 2016, Detective Noah Scott performed a forensic interview with Doe.
Doe disclosed that Bennett "hurt her." Bennett took pictures of Doe "down there" referring
to her vaginal area. Bennett also took pictures of her chest. All of these pictures were
taken with Bennett's phone. Doe also reported that Bennett. touched her in the vaginal
and chest area. She stated that he touched under her clothes with his "little willy thingy"
and took pictures with his phone while touching her. Doe roportcid that this all occurred at
their house in her mom's room.
Doe disclosed that when Bennett took the pictures he made Doe spread her legs and
lift her legs up while she laid on her back. Doe felt scared when this happened and
reported that only she and Bennett were in the room while he did this and while he took
the pictures.
After the interview, Detective Price spoke with Doe's mother. Doe's mother reported
that this was Bennett's only phone and that he had used it for at least a year prior to him
being arrested in October 2015. Doe's mother stated that after he was arrested she tried to
get into the phone as she was suspected that Bennett looked at child pornography,
however she could not access the phone as it was protected by a pas.scode.

2

USAO-21 3
Exhibit A - Page 2

ADDENDUM - Page 60

Case 4:17-cr-00068-BMM Document 142-2 Filed 03/15/19 Page 3 of 6

16-491
Based on the foregoing facts and circumstances and Detective Price's years of
experience as a law enforcement officer and his formal education and training as a law
enforcement officer, Detective Price has reason to believe that the following items and
evidence related to the above-referenced offenses, facts, and circumstances may now be
found in or about the above-described property bin at the jail:
Lists of incoming and outgoing calls;
Lists of incoming and outgoing text messages;
Digital and/or Cell phone videos pictures and images to include the cellphone
gallery and SIM card:
(4) SIM/SD card information and contents;
(5)
Subscriber information;
(6) Information, date, passwords, other program or saved information used to
access any online program or service that monitored the Suspects web cam
and/or saved password data needed to accesses the same; and
(7) Any text applications.
(1)
(2)
(3)

Accordingly, based on the foregoing facts, I, Detective Adam Price, believe that
probable cause exists to believe that the above-referenced offense has been committed in
Ca.seade County, Montana, and that probable cause exists to believe that the abovedescribed articles, items, and things which may constituted evidence, contraband, articles,
or may be fruits of, or related to, or connected with the above-described offenses, facts, and
circumstances may now be located at, in, or about the above-described places, locations,
and premises.
WHEREFORE, the undersigned affiant requests that a Search Warrant be issued
out of the above-entitled Court commanding and directing Detective Price and any law
enforcement or peace officer under his direction to search the above-described locations,
places, and premises for the above - described items, articles, and things, and if found ; to
seize them in the manner provided by law

3

USAO-214
Exhibit A - Page 3

ADDENDUM - Page 61

Case 4:17-cr-00068-BMM Document 142-2 Filed 03/15/19 Page 4 of 6

16-491

DATED August 31, 2016.

Detective Adam Price
Great Falls Police Department
Sworn before me on this

day of August, 2016, by Detective Adam Price,

of the Great Falls Police Department.

ISTR1CT CO T JUDGE

4

USAO-215
Exhibit A - Page 4

ADDENDUM - Page 62

Case 4:17-cr-00068-BMM Document 142-2 Filed 03/15/19 Page 5 of 6

16-491

MONTANA EIGHTH JUDICIAL DISTRICT COURT, CASCADE COUNTY
IN THE MATTER OF THE SEARCH OF THE CONTENTS OF:

(1) A SAMSUNG GALAXY S3 CELLULAR PHONE, BLUE IN COLOR, BELONGING
TO BRANDON BENNETT
THE CELLULAR PHONES ARE CURRENTLY IN THE CUSTODY OF THE GREAT
FALLS POLICE DEPARTMENT.
SEARCH WARRANT
TO: GREAT FALLS POLICE DEPARTMENT DETECTIVE ADAM PRICE AND ANY
OTHER PEACE OFFICER UNDER HIS DIRECTION.
PROOF BY AFFIDAVIT having been made this date before me by DETECTIVE

ADAM PRICE that he has knowledge and does believe that there is probable cause that
the following offenses have been committed:
Sexual Abuse of Children, a Felony, in violation of Mont. Code Ann. § 45-5-625.
Incest, a Felony, in violation of Mont. Code Ann. § 45-5-507.

That he has knowledge and does believe that the following items are located in the
above -described cellular phone:
(I)
(2)
(3)

Lists of incoming and outgoing calls;
Lists of incoming and outgoing text messages;
Digital and/or Cell phone videos pictures and images to include the cellphone
gallery and SIM card;
(4) SIM/SD card information and contents;
(5) Subscriber information;
(6) Information, date, passwords, other program or saved information used to
access any online program or service that monitored the Suspects web cam
and/or saved password data needed to accesses the same; and
(7) Any text applications.
YOU ARE THEREFORE COMALANDED at any time of the day or night, within ten

OW days to make an immediate search of the above-described cellular telephones for the
5

USAO-209
Exhibit A - Page 5

ADDENDUM - Page 63

Case 4:17-cr-00068-BMM Document 142-2 Filed 03/15/19 Page 6 of 6

16- 491
items described above, to take and carefully keep the same, and to make return of said
Warrant to me showing all acts and things done thereunder, with a particular statement
of the items seized, if any, and make an inventory to the Court. according to law, and if no
items are found, your return shall so state,
GI N UNDER MY

I D SEAL AUGUST

(

2016.

DISTRICT aURT UDGE

0 91611 I
5&Lpep( of\

6

USAO-210
Exhibit A - Page 6

ADDENDUM - Page 64

